No. 20INTHE

~upreme Qtourt of tbe Wniteb ~tate~
RAYMOND MARLING,

Petitioner,
v.
WARDEN OF WABASH VALLEY CORRECTIONAL FACILITY,

Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.l(h), I hereby certify that the Petition
for Writ of Certiorari in Raymond Marling v. Warden of Wabash Valley Correctional

Facility, No. 20-_, complies with the word limitations, as it contains 8,968 words.
I declare under penalty of perjury that the foregoing is true and correct.

Date: January 13, 2021

